Audit
Report
   FY 2000 U.S. ARMY CORPS OF ENGINEERS OBLIGATIONS
             FOR DOD COMPONENT CONTRACTS



Report No. D-2001-185                  September 21, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                     OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CEFMS                 Corps of Engineers Financial Management System
CFO                   Chief Financial Officers
COEMIS                Corps of Engineers Management Information System
Corps of Engineers    U.S. Army Corps of Engineers
FAD                   Funding Authorization Document
MIPR                  Military Interdepartmental Purchase Request
PBAS                  Programming, Budgeting, and Accounting System
S&A                   Supervision and Administration
                       Office of the Inspector General, DoD
Report No. D-2001-185                                              September 21, 2001
  (Project No. D2001FI-0024)

           FY 2000 U.S. Army Corps of Engineers Obligations
                    for DoD Component Contracts


                               Executive Summary

Introduction. We conducted this audit of the U.S. Army Corps of Engineers (Corps
of Engineers) obligation and disbursement of Air Force funds in response to a request
from the Air Force Audit Agency. The results were used by the Air Force Audit
Agency to support its FY 2000 financial statement audit. Each year the Corps of
Engineers receives program authority to manage the design and construction of Air
Force buildings and structures. The Air Force does not have transaction-level visibility
of the Corps of Engineers use of those funds. The Corps of Engineers provides the Air
Force with project-level information both monthly and at year’s end for annual financial
report preparation. For FY 1991 through FY 2000, the Corps of Engineers reported
$8.1 billion in Air Force obligations. As of September 30, 2000, the Corps of
Engineers reported that $854.6 million (23 districts) of those Air Force obligations
were unliquidated. We statistically sampled and reviewed 295 of the Air Force
unliquidated obligations valued at $668.6 million at 12 of the 23 Corps of Engineers
districts. To verify the accuracy of the $668.6 million of unliquidated obligations, we
validated $1.1 billion of obligations and the related $417.6 million of disbursements.

Objectives. The objective of this audit was to determine whether the Corps of
Engineers obligations and related disbursements of DoD Component funds, specifically
Air Force, were properly approved, supported, and validated. We did not review the
Corps of Engineers management control program because the Army Audit Agency
reviewed management controls during the audit of the “FY 2000 Financial Statements:
U.S. Army Corps of Engineers, Civil Works.”

Results. Air Force obligations we reviewed with the Corps of Engineers were
generally valid. Our focused review of unliquidated obligations for FY 1998 through
FY 2000, constituted 99 percent of the Corps of Engineers available Air Force
resources. The review showed that 96 percent of the obligations and 95 percent of the
disbursements reviewed were supported by source documentation. However, the Corps
of Engineers did not always maintain required audit trails to support triannual reviews
and obligations were overstated by $991,942.
Summary of Recommendations. We recommend that the Commander and Chief of
Engineers, U.S. Army Corps of Engineers, ensure that:

•   required support for triannual reviews is maintained,

•   identified errors in the New York District are corrected,

•   supervision and administration rate is applied consistently in the Fort Worth and
    Mobile districts.

Management Comments. The Commander and Chief of Engineers, U. S. Army
Corps of Engineers, concurred with recommendations to maintain documentation
supporting triannual reviews and to discontinue obligating supervision and
administration for contract contingencies. The Commander and Chief of Engineers,
U. S. Army Corps of Engineers, nonconcurred with the recommendation to correct the
errors identified in the New York District, stating that the issue is still under review.
See the Management Comments section for complete text of management comments.

Audit Response. The Commander and Chief of Engineers, U. S. Army Corps of
Engineers, comments were fully responsive to the recommendations to maintain
documentation supporting triannual reviews and to discontinue obligating supervision
and administration for contract contingencies. The comments to the recommendation to
correct the errors identified in the New York District were not responsive. The
auditors provided copies of workpapers supporting the $918,124 invalid charge to the
New York District Internal Review Office on July 26, 2001. Management comments
provided no additional information; therefore, recommendation remains unchanged.
We request that management respond to this recommendation in their comments to the
final report by November 21, 2001.




                                            ii
Table of Contents

Executive Summary                                           i


Introduction
     Background                                            1
     Objective                                             2

Finding
     U.S. Army Corps of Engineers Financial Transactions    3

Appendixes
     A. Audit Process                                      11
         Scope                                             11
         Methodology                                       12
         Prior Coverage                                    13
     B. Sample Results                                     14
     C. Air Force Appropriations to Corps of Engineers     16
     D. Report Distribution                                17

Management Comments
     U.S. Army Corps of Engineers                          19
Background
    This report provides the results of the audit of unliquidated Air Force
    obligations maintained and accounted for by the U.S. Army Corps of Engineers
    (Corps of Engineers). Each year, Congress appropriates the funds for approved
    projects to various Military Departments and Defense agencies for which the
    Corps of Engineers will provide design, construction, and administration
    services. The Corps of Engineers execute the funding authority and provide the
    respective Military Department or Defense agency information on the status of
    those funds (for financial reporting purposes). The Military Departments and
    Defense agencies do not have transaction level visibility of the Corps of
    Engineers use of those funds. The Air Force allocated $8.2 billion to the Corps
    of Engineers from FY 1991 through FY 2000 for the accomplishment of
    military construction projects (Appendix C). Of the $8.2 billion allocated, the
    Corps of Engineers reported $854.6 million of unliquidated obligations at
    23 districts as of September 30, 2000.

    Chief Financial Officers Act. This audit was performed in response to a
    request from the Air Force Audit Agency. The Air Force Audit Agency
    requested the audit in accordance with Public Law 101-576, the “Chief
    Financial Officers (CFO) Act of 1990,” November 15, 1990, as amended by
    Public Law 103-356, the “Federal Financial Management Act of 1994,”
    October 13, 1994, which requires Federal agencies to prepare and submit
    audited annual financial statements. Information contained in this report was
    presented to the Air Force Audit Agency to support its FY 2000 financial
    statement audit. The Corps of Engineers began developing the Corps of
    Engineers Financial Management System (CEFMS) in 1988 as part of its
    Information System Modernization Program. From 1993 through 1998, the
    Corps of Engineers converted its financial management from the Corps of
    Engineer Management Information System (COEMIS) to CEFMS. The Corps
    of Engineers continues to improve CEFMS and is incorporating the
    requirements of the CFO Act in those improvements.

    CEFMS General and Application Controls. General Accounting Office,
    Report No. GAO-01-89, “Financial Management: Significant Weaknesses in
    Corps of Engineers Computer Controls,” October 2000, made
    93 recommendations to improve controls over the system. The audit identified
    system weaknesses related to access controls, application software development
    and control, systems software, segregation of duties, and application controls.
    Corps of Engineers management indicated nonconcurrence with
    13 recommendations and was in the process of addressing the remaining
    recommendations. The General Accounting Office was conducting a followup
    audit to review corrective actions taken by the Corps of Engineers. Although
    the weaknesses identified the potential for financial data manipulation and
    precluded reliance on internal controls, auditors found no instances where data
    were actually manipulated or were not reliable.

    Appropriated Funds. Funds appropriated to the Corps of Engineers for the
    completion of Air Force construction projects may be disbursed for 10 years
    after appropriation. Original appropriations are available for obligation for



                                        1
    5 years. Although the appropriated funds expire after 5 years, the Corps of
    Engineers may use expired funds for an additional 5 years to cover:

    •   contract adjustments,

    •   claims, and

    •   miscellaneous disbursements made against original obligations

    The Corps of Engineers cannot use expired funds for new obligations. The
    Corps of Engineers manages the appropriated funds and provides monthly status
    reports to the Air Force. The Air Force reports the status of those funds in its
    annual financial statements.

    Triannual Review of Obligations. The DoD Financial Management
    Regulation, volume 3, chapter 8, “Standards for Recording and Reviewing
    Commitments and Obligations,” November 2000, requires that DoD accounting
    activities review all unliquidated obligations on a triannual basis to ensure
    validity. Obligations that are found to be invalid or unsupported should be
    canceled. To accomplish the review, the Corps must maintain documentation to
    confirm that all obligations recorded in the system have been validated to source
    documents. The Corps of Engineers must also confirm that all obligations that
    could not be substantiated or validated after a thorough review by the funds
    holder have been deobligated. Further, the review must include dormant
    obligations (obligations that have not had a transaction posted against them for a
    period of time).

Objective
    The objective of this audit was to determine whether the Corps of Engineers
    obligations and related disbursements for DoD Component funds, specifically,
    Air Force, were properly approved, supported, and valid. We did not review
    the Corps of Engineers management control program because the Army Audit
    Agency reviewed management controls during the audit of the “FY 2000
    Financial Statements: U.S. Army Corps of Engineers, Civil Works,”
    AA 01-187, February 14, 2001. See Appendix A for a discussion of the audit
    process.




                                        2
                    U.S. Army Corps of Engineers
                    Financial Transactions
                    Air Force obligations we reviewed with the Corps were generally valid.
                    Our review of unliquidated obligations from FY 1998 through FY 2000,
                    constituted 99 percent of the Corps’ available Air Force resources. The
                    review showed that 96 percent1 of the obligations and 95 percent of
                    disbursements reviewed for that period were supported by source
                    documentation. However, our review of unliquidated obligations from
                    FY 1991 through FY 1997 showed that 74 percent of the obligations and
                    62 percent of the disbursements for that period were supported by source
                    documentation. In addition, the Corps did not always maintain required
                    audit trails to support triannual reviews and obligations were overstated
                    by approximately $991,942. The conditions occurred because:

                        •   some Corps districts did not always comply with DoD Financial
                            Management Regulations documentation retention requirements
                            for triannual reviews,

                        •   Corps district, New York, cited the incorrect obligation when
                            paying for work accomplished under a Military Interdepartmental
                            Purchase Request, and

                        •   Corps districts, Fort Worth and Mobile, did not consistently
                            apply the supervision and administration rate.

                    The Corps of Engineers’ ability to support the unliquidated Air Force
                    obligations for the most recent 3 years led us to believe that validity of
                    the older unliquidated obligations could also be relied upon.

Validation of Unliquidated Obligations
           We statistically selected for review $668.6 million (of $854.6 million)
           unliquidated Air Force obligations reported by the Corps of Engineers in
           FY 2000. The sample consisted of 295 funding authorization documents. The
           sample spanned the 10-year period from FY 1991 through FY 2000 at 12 Corps
           of Engineers Districts. See Appendix A for the sample design. The Secretary of
           Defense is required by DoD Regulation 7000.14-R, the DoD Financial
           Management Regulation, volume 3, chapter 10, “Accounting Requirements for
           Expired and Closed Accounts,” dated November 2000, to report on unliquidated
           obligations for the most recent 10 years that funds are available for expenditure.
           We issued two data calls, which covered the 10-year period under review, to the
           Corps of Engineers. We received documentation to support 92 percent of the
           sampled obligations and 79 percent of the related disbursements incurred for the
           requested period. Due to financial reporting constraints, the Corps did not have

1
    Judgement sample percentage does not generalize to universe.



                                                     3
time to obtain documentation from remote locations to support the remaining
unliquidated obligations.

Analysis of the documentation received revealed that $661.9 million
(99 percent), of the $668.4 million of unliquidated obligations were incurred
from FY 1998 through FY 2000, as shown in the following graph.


                                         Unliquidated Obligations Balance
                                $550

                                $500
                                $450
  Dollar Amount (in millions)




                                $400
                                $350

                                $300                                                       ULO* Recorded
                                $250                                                       Balance

                                $200
                                                                                           ULO Audited
                                $150
                                                                                           Balance
                                $100

                                $50
                                  $-
                                       2000 1999 1998 1997 1996 1995 1994 1993 1992 1991
                                                         Program Year


*Unliquidated Obligations

Consequently, we focused on the information provided for those 3 years. The
$661.9 million of unliquidated obligations were the result of $873.3 million of
obligations and $211.4 million of disbursements. The Corps of Engineers
provided adequate documentation to support $842.1 million (96 percent) of the
obligations and $200.3 million (95 percent) of the disbursements.

Obligating Authority. Approximately $8.2 billion of obligating authority was
accurate, timely, and appropriately recorded in the Corps of Engineers
accounting records. To determine this, we obtained and reviewed:

              •                 Air Force Budget Authorization/Allocation or Operating Budget
                                Authority (Form 401),

              •                 Programming, Budgeting, and Accounting System (PBAS) Status of Air
                                Force Detail Program Distribution reports, and

              •                 Corps of Engineers funding authorization documents (FADs).




                                                               4
The FADs were generated in PBAS by Corps of Engineers Headquarters in
response to funding allocations received from the Air Force on Form 401. The
FADs were electronically transmitted to the respective Corps districts. We
compared the amounts in PBAS, on the FADs, and the audit universe with the
Air Force Form 401 in effect on September 30, 2000. We determined that
funding authority was fairly presented in Corps of Engineers financial records.

Unliquidated Obligations. Unliquidated obligations for Air Force funds
generally resulted from obligations and disbursements for:

       •   construction contracts,

       •   Military Interdepartmental Purchase Requests (MIPRs),

       •   supervision and administration (S&A),

       •   labor, and

       •   in-house charges.

As shown in the following table:

                 Breakout of Obligations and Disbursements

                                 FY 1998 - FY 2000

  Transaction    Obligations       Percent of    Disbursements    Percent of
     Type        (millions)       Sample Value     (millions)    Sample Value

   Contracts            $786.8           90.09          $187.3           88.60

    MIPRs                 10.9            1.24              .4              .20

     S&A                  42.8            4.90            11.0            5.18

     Labor                  .5             .17             1.5              .72

   In-house                 .1             .01              .1              .06

    Total               $842.1           96.41          $200.3           94.76
  Supported

 Unsupported            $ 31.2            3.59          $ 11.1            5.24

 Sample value           $873.3             100          $211.4             100


CEFMS is a paperless, electronic commerce financial management system;
therefore, source documents for some obligations and disbursements were not
readily available. In those instances, we relied upon prior audit work and
nonfinancial documentation to validate obligations and disbursements.



                                     5
        Construction Contracts. Approximately $786.8 million of unliquidated
obligations associated with construction contracts from FY 1998 through
FY 2000 were valid. In addition, approximately $187.3 million of related
disbursements were generally valid. We obtained and reviewed contracts,
payment estimates (Engineering Form 93s), and vendor invoices to support
obligations and disbursements incurred by the Corps of Engineers. Contracts
were signed by contracting officers and contractor representatives, and
identified the amount of the original obligation. Modifications to contracts
contained similar signatures and identified increases or decreases in contract
values. Payment estimates were third-party authenticated summaries of
cumulative obligations, payments, contract holdbacks, earnings to date, and
current payment data. The contracting officers usually signed the payment
estimates. The contractor representatives usually signed the final-payment
estimate and interim applications for payment. The documents could be used to
validate obligations and disbursements. We obtained and used prompt-payment
act certificates, signed by the contractors when the contractor did sign payment
estimates. Contractor invoices were available as a part of the prompt payment
certificate and were used to support disbursements. Construction contract
obligations and disbursements were complete and recorded in the proper period.
Obligations and disbursements associated with construction contracts were
generally stated correctly in accounting records and financial statements.
However, the Fort Worth district issued a duplicate payment of $40,428 in
FY 2000. The payment was corrected in FY 2001 by reducing the amount of a
subsequent payment. As a result, the unliquidated obligations balance was
understated by $40,428 in the Corps of Engineers accounting records on
September 30, 2000.

        Military Interdepartmental Purchase Requests. Except for one error
identified in the New York district, approximately $10.9 million of unliquidated
obligations associated with MIPRs between FY 1998 and FY 2000 were
generally valid. In addition, $400,000 of related disbursements were valid.
MIPRs were electronically processed and used to document contractual
agreements among Corps of Engineers districts or among the Corps of
Engineers and other Government entities.

We identified one error in the New York district. The error occurred when the
Corps of Engineers cited an incorrect obligation and appropriation for a
$918,124 disbursement. The disbursement should have been paid from the
FY 1997 Military Construction appropriation. However, Corps of Engineers
records indicate that the disbursement did not cite the correct obligation. The
error had not been corrected because Corps of Engineers officials could not
determine which obligation or appropriation the disbursement had been paid
from. As a result, the Corps of Engineers overstated Air Force unliquidated
obligations for the Military Construction appropriation by $918,124 in FY 2000.
DoD Regulation 7000.14-R requires that the New York District maintain
documentation to support that they have completed the triannual reviews of
unliquidated obligations. Corps of Engineers said they completed triannual
reviews; however, properly executed triannual reviews would have identified
the error and verified that it was corrected timely to avoid misstating year-end
accounting records used for financial statement reporting. In addition,
management controls were not adequate to verify that District officials
maintained documentation to support their accomplishment of triannual reviews.


                                    6
        Supervision and Administration. Approximately $42.8 million of S&A
charges associated with unliquidated obligations incurred from FY 1998 through
FY 2000 were generally valid. In addition, $11.0 million of related
disbursements were valid. However, S&A charges were not being consistently
applied across Corps of Engineers. S&A consisted of labor, travel, in-house
costs, and small contracts required for administering projects. The S&A rate
was derived by Corps of Engineers Headquarters, Resource Management
Office, and agreed to by the Under Secretary of Defense (Comptroller) for use
DoD-wide. The rate was based on the average cost throughout the Corps of
Engineers to administer a contract. The Corps of Engineers applied the agreed
upon rate to each contract to cover S&A costs. At the time the audit was
conducted, the S&A rate for all contracts within the continental United States
and Korea was 5.7 percent and 6.5 percent of the contract costs, respectively.
Prior to October 1995, the continental United States S&A rate was 6.0 percent.

The S&A rate should have been calculated and charged to the projects as
a percent of contractual agreements. We tested S&A rates to determine whether
they were equal to or less than the percentage in effect for the U.S. and Korea
for the period under review. Management controls were not adequate to ensure
that at least two of the districts properly applied S&A charges. The Fort Worth
and Mobile Districts calculated and charged S&A on contingency items for
some contracts. The Air Force identified contingencies for contract
modifications in notifications to Congress. Therefore, funding for the contract
contingency was not obligated at the time of the initial contract. Nevertheless,
the two districts obligated S&A charges as a result of the contingency amounts
for contractual obligations that did not exist at the time the S&A was obligated.
As a result, unliquidated obligations were overstated by $114,246.

        Labor. We obtained detailed cost ledgers and labor cost distribution
reports. We randomly selected 49 time and attendance logs and compared the
number of hours charged on the logs with the number of hours charged to the
sample items in CEFMS. There were no misstatements in accounting records
for the labor charges we reviewed. Additionally, we relied upon prior audit
work performed by the Inspector General, DoD, and Army Audit Agency as
discussed below, which supported the reliability of $1.5 million of labor cost
distribution.

         In-House Costs. We relied on a judgmental sample to determine the
validity of approximately $100,000 of in-house costs. The Corps of Engineers
districts used Corps of Engineers and General Services Administration vehicle
services from the Logistics Management Office. We randomly selected
in-house vehicle charges and compared the amount charged to the sample item
on the cost distribution report with the amount charged to the sample item in
CEFMS. All of the charges we reviewed were valid and accurately reflected in
accounting records. The Corps of Engineers in-house charges also included
printing, audio-visual production and electronic data services provided by
Information Management Offices, as well as computer aided design services
provided by Engineering Divisions. The cost of those services were allocated to
the technical departments as a predetermined overhead rate and properly
distributed to projects including the Air Force projects. Overhead rates were
established at the district level and derived from the cost of operations, which
according to 10 United States Code 2802, must be borne by the projects.


                                    7
    Reliance on Prior Audit Work. We relied upon prior audit work to validate
    Air Force obligations and disbursements. During their audit for the “FY 2000
    Financial Statements: U.S. Army Corps of Engineers, Civil Works,” the Army
    Audit Agency tested internal controls over Corps of Engineers payroll
    processes. The tests determined that controls over time and attendance, and
    personnel functions were effective. We based our reliance on this work in
    accordance with accepted auditing standards. Further, the Inspector General,
    DoD, also performed annual audits of Superfund obligations and disbursements
    managed by the Corps of Engineers. The FY 1999 audit determined that
    Superfund financial transactions were 99.8 percent accurate for FY 1998 and
    99.9 percent accurate in FY 1999. The audit concluded that the small number
    of discrepancies did not indicate a systemic control weakness. Also, the
    discrepancies did not materially affect the conclusions that the Corps of
    Engineers properly administered its portion of the Superfund. In addition, the
    audit revealed that management controls reviewed were effective and identified
    no material weaknesses. We relied upon this work to validate labor charges
    associated with Air Force obligations managed by the Corps of Engineers.

    Zero Balance Sample Items. Zero balances we reviewed were generally valid.
    Of the 295 sample items, 130 had zero balances. Although the zero balances
    had no effect on the financial statements, we included them in our review to
    determine whether they were valid. The zero balance sample items remain in
    the database in accordance with DoD Regulation 7000.14-R. Our review of
    zero balances produced results similar to our review of non-zero balances. The
    Corps of Engineers was generally able to provide documentation to support
    obligations and disbursements incurred from FY 1998 through FY 2000. For
    obligations and disbursements incurred from FY 1991 through FY 1997, the
    Corps of Engineers did not always provide support documentation for zero
    balances because the projects had been closed out and supporting documents had
    been sent to storage facilities. Two Districts, Tulsa and Mobile, did not provide
    support for the zero balance sample items. In contrast, the Omaha District
    provided 100 percent support for 14 of their 15 zero balance sample items.

Document Retention
    The Corps of Engineers did not provide documentation to fully support the
    sample obligations and disbursements. The National Archives and Records
    Administration, General Records Schedule 3, requires that contract files be
    maintained for 6 years and 3 months after final payment. Corps of Engineers
    policy is to retire contract files to records holding areas 3 years after final
    payment. Contract files were to be retained in records holding areas for the
    remainder of the 6 years and 3 months. In addition, DoD Regulation 7000.14-R
    requires fund holders to maintain sufficient documentation to permit independent
    organizations to verify that the reviews were accomplished as required. The
    documentation should be maintained for a period of 24 months following the
    completion of the triannual reviews. Of the twelve districts reviewed, all
    reported that they performed triannual reviews, but only two districts provided
    documentation to support them. Documentation should have been available at
    all locations, for all sampled items, as required to support the triannual review
    verification process. The Corps of Engineers District offices informed us that
    the files were maintained for the required period of time. Those files were often


                                        8
    maintained in remote locations and not readily accessible. We therefore
    question whether verification procedures at some Corps locations were adequate
    to meet DoD Financial Management Regulation requirements.

    The Corps of Engineers was unable to readily provide supporting documentation
    for some Air Force obligations and disbursements. We determined that
    $641.8 million of the $661.9 million of unliquidated obligations from FY 1998
    through FY 2000 period were supported and valid. The availability of
    documentation for obligations and disbursements reviewed ranged from
    100 percent support for disbursements at the Albuquerque District to 76 percent
    at the Tulsa District. The Corps of Engineers had approximately 95 percent
    support for disbursements we reviewed. We also found nothing adverse to
    indicate that past accounting practices (where support was not provided) differed
    significantly from those demonstrated to be valid. See Appendix B for details of
    the support documentation we received.

Summary
    Our review of unliquidated obligations from FY 1998 through FY 2000 showed
    no material misstatements for the transactions tested. We statistically selected
    and reviewed ($661.9 million of $854.6 million) Air Force unliquidated
    obligations at 12 Corps of Engineers Districts. The policies, procedures, and
    controls established by DoD, the Air Force, and the Corps of Engineers to
    manage obligations and disbursements were effective, 96 percent and
    95 percent, respectively. However, the Corps of Engineers did not always
    comply with triannual review documentation requirements, or cite the proper
    obligation and appropriations associated with Military Interdepartmental
    Purchase Requests. The Corps of Engineers also did not always consistently
    apply the supervision and administration rate. The Corps of Engineers could not
    provide documentation to fully support obligations and disbursements from
    FY 1991 through FY 1997.Although we found the above minor problems, there
    was nothing to indicate that the unliquidated obligations were materially
    misstated in the financial records for the fiscal year ending September 30, 2000.

Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commander and Chief of Engineers, U.S. Army,
    Corps of Engineers:

           a. Ensure that documentation supporting the triannual review
    process is retained for the required period in accordance with DoD
    Regulation 7000.14-R, the DoD Financial Management Regulation, volume
    3, chapter 8, “Standards for Recording and Reviewing Commitments and
    Obligations,” dated November 2000.

           b. Ensure that the Fort Worth and Mobile Districts apply the
    supervision and administration rate consistent with Corps policy and
    deobligate the inappropriate obligations in both districts.


                                        9
      c. Require that the New York District determine the correct
appropriation to be charged for the $918,124 and make the appropriate
adjustment.

        Management Comments. The Commander and Chief of Engineers,
U. S. Army Corps of Engineers, concurred with Recommendations a. and b.
They will specifically address the triannual review supporting documentation
requirement in their FY 2002 Joint Reconciliation Program Guidance to U. S.
Army Corps of Engineers Command, which should be issued by October 31,
2001. The Fort Worth District will discontinue obligating supervision and
administration for contract contingencies. Supervision and Administration will
only be obligated for contractual awards and modifications and inappropriate
obligations will be deobligated by December 31, 2001. Future District Joint
Unliquidated Obligation Review Guidance will address Military supervision and
administration obligations.

       The Commander and Chief of Engineers, U. S. Army Corps of
Engineers, nonconcurred with Recommendation c., stating that the issue is still
being worked on within the chain of command and that DoD, Inspector General
involvement may be required before a resolution can be reached.

        Audit Response. The Commander and Chief of Engineers, U. S. Army
Corps of Engineers, comments were fully responsive to Recommendations a.
and b. The comments to Recommendation c. were not responsive. The
auditors provided copies of workpapers supporting the $918,124 invalid charge
to the New York District Internal Review Office on July 26, 2001.
Management comments provided no additional information; therefore, the
recommendation remains unchanged. We request that management respond to
Recommendation c. in their comments to the final report.




                                   10
Appendix A. Audit Process

Scope
    Work Performed. We reviewed the validity of unliquidated obligations as of
    September 30, 2000. To accomplish this, we reviewed guidance requiring or
    resulting in the recording of obligations and disbursements. We reviewed
    guidance on the documentation necessary to support the recorded entries. We
    reviewed the Corps of Engineers obligations and disbursements of Air Force
    funds from FY 1991 through FY 2000 to determine whether they were properly
    approved, supported, and valid. We reviewed $668.6 million of the
    $854.6 million reported in FY 2000 unliquidated obligations.

    Limitation of Scope. We did not review the management control program for
    the Corps of Engineers. The Army Audit Agency reviewed the management
    controls during the audit of the U. S. Army Corps of Engineers financial
    statements in the audit report, “Fiscal Year 2000 Financial Statements: U. S.
    Army Corps of Engineers, Civil Works,” February 14, 2001.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures.

           • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
              future by pursuing a focused modernization effort that maintains U.S.
              qualitative superiority in key warfighting capabilities. Transform the
              force by exploiting the Revolution in Military Affairs, and reengineer
              the Department to achieve a 21st century infrastructure. (01-DoD-02)

           • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
              financial and information management. (01-DoD-2.5)

           • FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                          −DoD-2.5.2.)
              on financial statements. (01−




                                       11
    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

              • Financial Management Area. Objective: Eliminate problem
                disbursements. Goal: Improve timeliness and accuracy of
                obligations. (FM-3.3)

           General Accounting Office High-Risk Area. The General Accounting
    Office has identified several high-risk areas in the DoD. This report provides
    coverage of the Defense Financial Management high-risk area.

Methodology
    Use of Computer-Processed Data. We relied on computer processed data
    extracted from CEFMS to determine labor and in-house costs. Although we did
    not formally assess the reliability of the computer-processed data, the source
    documentation obtained agreed with the computer-processed data used in our
    sample. We did not find errors that would preclude the use of the computer-
    processed data to meet the audit objective. General Accounting Office,
    Report No. GAO-AIMD-01-89, “Financial Management: Significant
    Weaknesses in Corps of Engineers' Computer Controls,” September 15, 2000,
    identified system weaknesses related to:

          •     access control,
          •     application software development and control,
          •     systems software,
          •     segregation of duties,
          •     application-input controls, and
          •     processing controls

    Although these weaknesses identified the risk of financial data manipulation, we
    found no instances of data manipulation.

    Universe and Sample. We extracted the universe for this audit from the
    CEFMS database. The universe contained 2,650 Air Force appropriation
    allocation codes and related unliquidated obligations distributed to 23 Corps of
    Engineers districts with a value of $854.6 million. We selected a total of
    295 sample items from 12 of the 23 districts with a value of $668.6 million.

    Statistical Sampling Methodology. A multistage design was used. The first
    stage consisted of 12 out of 23 locations (based on unliquidated obligation dollar
    amount) that were selected without replacement using probability proportional to
    the size sampling methodology. The second stage was stratified into two strata
    by unliquidated obligation dollar amount. The first stratum consisted of items
    that were greater than or equal to $1 million, and the second stratum consisted
    of items that were less than $1 million. All unliquidated obligations in the first
    stratum were selected for review from each of the selected locations. In the


                                        12
    second stratum, we randomly selected 15 unliquidated obligations for review
    from each of the selected locations. There were 116 unliquidated obligations
    selected in the first stratum and 179 selected from the second stratum. Those
    obligations accounted for $668.6 million out of $854.6 million total unliquidated
    obligations.

    Statistical Projection. The audit identified misstatements in the Corps of
    Engineers financial statements that overstated the Air Force unliquidated
    obligations by approximately $991,942. All identified misstatements were in
    the census strata and did not require statistical projection. In addition, we tried
    to determine the impact on the entire population if all unsupported obligations
    and disbursements in the sample population were errors. However, we had
    selected the sample based on unliquidated obligations, not obligations and
    disbursements. The measure used to analyze the sample was changed after the
    sample was drawn and the audit was in progress, from unliquidated obligation
    dollars to cumulative obligation and cumulative payment dollars. The lack of
    correlation between the original and revised measures; and large variability
    between and within the locations selected resulted in an inability to statistically
    project from the sampled data.

    Use of Technical Assistance. We obtained technical assistance on the statistical
    sample from the Quantitative Methods Division of the Audit Followup and
    Technical Support Directorate, Office of the Assistant Inspector General for
    Auditing, DoD.

    Audit Type, Dates and Standards. We performed this financial related audit
    from October 2000 through May 2001 using data from FY 1991 through
    FY 2000. We did our work in accordance with generally accepted government
    auditing standards except that we were unable to obtain an opinion on our
    system of quality control. The most recent external quality control review was
    withdrawn on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.



Prior Coverage
    Inspector General, DoD, Report No. D-2000-184, “FY 1999 DoD Superfund
    Financial Transactions,” August 31,2000

    Inspector General, DoD, Report No. 99-257, “FY 1998 DoD Superfund
    Financial Transactions,” September 22, 1999

    Inspector General, DoD, Report No. 98-200, “FY 1997 DoD Superfund
    Financial Transactions,” September 16, 1998

    Inspector General, DoD, Report No. 97-212, “FY 1996 DoD Superfund
    Financial Transactions,” September 4, 1997



                                         13
                Appendix B. Sample Results
Location
                                                 3 Years                                    Prior Years
                                               FY 1998 - 2000                               FY 1991 - 1997
                                  Obligation    Disbursement       ULO*       Obligations    Disbursement      ULO
                                  (millions)     (millions)      (millions)   (millions)      (millions)     (millions)

              Sample Value         873.3           211.4          661.9        212.8           206.1           6.7
Corps-Total




              Audited Value        842.1           200.3          641.8        157.3           128.0          29.3

              % Supported           96.0%           95.0%                       74.0%           62.0%

              Sample Value          37.5             7.4            30.0          .5              .5           0
Albuquerque




              Audited Value         37.3             7.4            29.8          .07             .07          0

              % Supported           99.0%          100.0%                       12.0%           12.0%

              Sample Value          68.4            18.6            49.8         2.6             2.5            .1
Fort Worth




              Audited Value          65.0           17.0            47.9         2.5             2.5            .1

              % Supported            95.0%          92.0%                       99.0%          100.0%

              Sample Value           50.6           14.0            36.5        28.1            27.7            .4
Kansas City




              Audited Value          50.4           14.0            36.5          9.6            9.1            .5

              % Supported            99.7%          99.3%                       34.0%           33.0%

              Sample Value           63.6           22.4            41.2        11.3            11.3           0
Korea




              Audited Value          57.0           21.9            35.1          9.7            9.7           0

              % Supported            90.0%          98.0%                        86.0%          86.0%

              Sample Value           89.0           23.3            65.7          3.0            3.0           0
Louisville




              Audited Value          88.0           20.9            67.1          2.8            2.8           0

              % Supported            99.0%          90.0%                        93.0%          93.0%




                *
                    Unliquidated Obligations (Differences due to rounding)




                                                                     14
Location
                                            3 Years                                    Prior Years
                                          FY 1998 – 2000                               FY 1991 - 1997
                             Obligation     Disbursement       ULO        Obligation   Disbursement       ULO
                             (millions)      (millions)      (millions)   (millions)    (millions)      (millions)

             Sample Value      190.9            41.4           149.5        24.0           22.2             1.8
Mobile




             Audited Value     182.0            39.8           142.2         9.8           9.3                 .5

             % Supported        95.0%           96.0%                       41.0%          42.0%

             Sample Value       31.9            7.1             24.8        92.1           88.3            3.8
New York




             Audited Value     31.2             6.9             24.3        79.9           72.6            7.3

             % Supported        98.0%           97.0%                       87.0%          82.0%

             Sample Value      11.7             13.9           105.8          0            0                0
Omaha




             Audited Value     118.3            13.9           104.4          0            0                0

             % Supported        99.0%           99.9%                         0            0

             Sample Value      21.3             7.5             13.8          1.2           1.1                .1
Sacramento




             Audited Value     20.7             7.5             13.2         1.1           1.1              0

             % Supported        97.0%           99.6%                       97.0%         100.0%

             Sample Value      66.6             22.5            44.1        27.9           27.6                .3
Savannah




             Audited Value     66.6             22.3            44.2        21.7           20.3            1.4

             % Supported        99.9%           99.0%                       78.0%         74.0%

             Sample Value      51.8             14.3            37.5           .5              .5          0
Seattle




             Audited Value     51.7             14.2           37.5            .5              .5          0

             % Supported        99.9%           99.0%                       96.0%          96.0%

             Sample Value      82.1             18.9            63.2        21.7           21.6                .1
Tulsa




             Audited Value     74.0             14.4            59.6        19.6               .1         19.5

             % Supported        90.0%           76.0%                       90.0%           0.0%




                                                        15
Appendix C. Air Force Appropriations to Corps
            of Engineers
                                                                        Allot3
         2   Fund
Approp                                Description                      Received      Oblig4      Disburse5     ULO6
             Code
                                                                       (millions)   (millions)   (millions)   (millions)
57 3300      25     Military Construction, Air Force                    $6,037.0 $5,954.9         $5,241.5      $713.3
57 3300      XF     Military Construction, Air Force                         8.2       8.2             8.2         0
57X3300      XC     Military Construction, Air Force (No Year)              54.6      54.5            54.4           .2
57 3304      3C     Military Construction, Air Force (Special Allot)         2.2       2.2             1.4           .8
57 3730      57     Military Construction, Air Force Reserve               300.4     297.6           237.0        60.5
57 3830      53     Military Construction, Air National Guard                4.1       4.1             4.1         0
57 7040      89     Family Housing Construction, Air Force                 406.4     404.1           378.0        26.1
97 0103      20     DoD BRAC7 88 Account, Part I                           425.2     425.1           425.1         0
97 0500      84     Military Construction, DOD                              81.6      52.8            19.0        33.8
97X0510      2R     DoD BRAC 91 Account, Part II FY 92 - FY 94             367.3     367.3           367.2           .1
97X0510      5F     DoD BRAC 93 Account, Part III FY 94 Only                32.6      32.6            32.3           .3
97X0510      H7     DoD BRAC 91 Account, Part II FY 96 Only                 49.1      49.1            49.0           .1
97X0510      HD     DoD BRAC 93 Account, Part III FY 94 Only                25.1      25.1            25.0           .1
97X0510      HP     DoD BRAC 95 Account, Part IV FY 96 Only                 15.9      15.9            15.9         0
97X0510      HY     DoD BRAC 91 Account, Part II FY 95 Only                 25.5      25.4            25.1           .3
97X0510      HZ     DoD BRAC 93 Account, Part III FY 95 Only                97.8      97.7            97.1           .6
97X0510      X1     DoD BRAC 91 Account, Part II FY 97 Only                 41.7      41.5            41.3           .2
97X0510      X2     DoD BRAC 93 Account, Part III FY 97 Only                32.2      31.9            31.2           .7
97X0510      X3     DoD BRAC 95 Account, Part IV FY 97 Only                 71.4      71.3            70.9           .4
97X0510      X8     DoD BRAC 93 Account, Part III FY 98 Only                 2.0       2.0             2.0         0
97X0510      XE     DoD BRAC 95 Account, Part IV FY 99 Only                 28.6      28.1            15.0        13.1
97X0510      XK     DoD BRAC 95 Account, Part IV FY 98 Only                 57.4      57.1            55.0         2.0
97X0510      BP     DoD BRAC 00 Account                                      4.4       4.2             2.3         1.9
57*8928      75     Air Force Gift Fund                                      5.4       5.4             5.4         0
                  TOTAL                                                 $8,176.1 *$8,058.0        $7,203.4     *$854.6
*Differences due to rounding




2
  Appropriation
3
  Allotment
4
  Obligations
5
  Disbursements
6
  Unliquidated Obligation
7
  Base Realignment and Closure



                                                     16
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Acquisition Reform)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander and Chief of Engineers, U.S. Army Corps of Engineers

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                         18
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Addie M. Beima
Frank C. Sonsini
Alice F. Carey
Corrisse L. Carlton
Kevin G. Burrowes
Stephen G. Wynne
